<html>
<title> - CLOSING THE DIGITAL DIVIDE: CONNECTING RURAL AMERICANS TO RELIABLE INTERNET SERVICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


       FIELD HEARING: HUDSON, NY: CLOSING THE DIGITAL DIVIDE: 
       CONNECTING RURAL AMERICANS TO RELIABLE INTERNET SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD
                            OCTOBER 4, 2019
                               __________

                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-048
             Available via the GPO Website: www.govinfo.gov
             
                                ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-894                       WASHINGTON : 2019              
             


                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director


                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Antonio Delgado.............................................     1

                               WITNESSES

Mr. Tim Johnson, CEO, Otsego Electric Cooperative, Edmeston, NY..     5
Ms. Shannon Hayes, Owner, Sap Bush Hollow Farm Store and Cafe, 
  West Fulton, NY................................................     7
Mr. David Berman, Co-Chair, Columbia Connect, Ghent, NY..........     9
Mr. Jason Miller, General Manager, Delhi Telephone Company, 
  Delhi, NY......................................................    11
Mr. Brian Dunn, Superintendent, Middleburgh Central School 
  District, Middleburgh, NY......................................    13
Dr. Cliff Belden, Chief Medical Officer, Columbia Memorial 
  Health, Hudson, NY.............................................    14

                                APPENDIX

Prepared Statements:
    Mr. Tim Johnson, CEO, Otsego Electric Cooperative, Edmeston, 
      NY.........................................................    22
    Ms. Shannon Hayes, Owner, Sap Bush Hollow Farm Store and 
      Cafe, West Fulton, NY......................................    31
    Mr. David Berman, Co-Chair, Columbia Connect, Ghent, NY......    33
    Mr. Jason Miller, General Manager, Delhi Telephone Company, 
      Delhi, NY..................................................    35
    Mr. Brian Dunn, Superintendent, Middleburgh Central School 
      District, Middleburgh, NY..................................    41
    Dr. Cliff Belden, Chief Medical Officer, Columbia Memorial 
      Health, Hudson, NY.........................................    42
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


 
     
    CLOSING THE DIGITAL DIVIDE: CONNECTING RURAL AMERICANS TO RELIABLE 
                            INTERNET SERVICE

                              ----------                              


                        FRIDAY, OCTOBER 4, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:17 p.m., at 
Columbia Greene Community College, 4400 Route 23, Hudson, New 
York, 12534, Hon. Antonio Delgado presiding.
    Present: Representative Delgado.
    Chairman DELGADO. I want to, again, thank all of you for 
joining us this morning, and a special thanks to Geoffrey 
Starks, the FCC Commissioner, and the witnesses for being here 
today. I want to open with an observation.
    As you will notice, there is no service in this auditorium. 
This is unfortunately the rule and not the exception here in 
the Twin Counties, and all across upstate, and New York's 19th 
Congressional District. Small businesses, families, schools, 
and healthcare providers in upstate suffer daily from a lack of 
consistent access to high-speed broadband services. This is due 
in large part to lack of investment in broadband 
infrastructure. Broadband services should not be treated as a 
luxury, but as a basic utility, and essential for all 
communities.
    Rural communities like this one have been left behind 
because high cost and low subscription promises little profits. 
But small businesses and families in rural communities deserve 
equal access to affordable broadband services at comparable 
speeds. We all realize it is more difficult and expensive to 
build out broadband networks in these areas, but that is no 
excuse. We must take swift and deliberate action to close the 
digital divide between our urban and rural economies. Over 26 
percent of Americans in rural America lack access to high-speed 
broadband compared to 1.7 percent in urban areas. Unequal 
access to high-speed broadband reduces economic opportunity for 
millions of Americans and small businesses.
    Small businesses in rural America are already struggling to 
compete with their urban counterparts and falling further 
behind as technology rapidly advances. Now, I hear from 
businessowners through my small business advisory committee and 
time here at home that there are small businesses, which serve 
as the backbone of our economy, that can't complete simple 
payment transactions because their internet service goes down 
over 100 times a day. Others say that they are paying for 
enterprise-level, high-speed service to get 100 megabits per 
second speeds, but are only getting 1 or 2 megabits-per-second 
speeds.
    Standard broadband service has devasting impacts on small 
business. In fact, small firms that are digitally connected 
each earn twice as much revenue per employee, experience 4 
times the revenue growth year over year, and are 3 times more 
likely to create jobs. These limitations harm rural small 
businesses and the communities that they serve. A startling 58 
percent of rural Americans believe that lack of access to high-
speed internet is a problem in their hometowns.
    Congress must work to coordinate Federal resources and make 
commonsense investments in targeted infrastructure projects. 
That is why I joined the majority with Jim Clyburn on the House 
Rural Broadband Taskforce to ensure that investments in rural 
broadband are included in any comprehensive infrastructure 
package that passes through the House. For many years, the FCC 
and USDA's rural utility service have made strides to foster 
the development of broadband networks in rural communities 
through grants and loans, but this is just one of many steps we 
can take to address the lack of access to rural broadband, and 
much more must be done.
    If you have heard me talk about broadband before, you will 
know I am deeply committed to addressing the flawed mapping 
process that undercounts our rural communities. The Federal 
government must have accurate data to ensure that funds and 
resources are being efficiently allocated to expand coverage to 
underserved areas. However, reports and widespread public 
outcry confirm that the FCC's maps are grossly overstated, and 
the National Telecommunications and Information 
Administration's outdated map was decommissioned. There is 
strong evidence that the percentage of Americans without 
broadband access is much higher than the FCC's numbers 
indicate, so we took action.
    On the Small Business Committee, we held hearings on 
broadband mapping and rural broadband access, calling for the 
FCC to improve its Form 477 data collection and require 
carriers to submit more granular data. Last month, the FCC 
issued an order requiring a new data collection that will 
capture more accurate data and potentially phase out Form 477 
altogether. The FCC also voted to open a rulemaking proceeding 
to establish a new fund, as the commissioner noted, offering 
$20.4 billion in funding over a 10-year period using data from 
the improved data collection.
    I will be keeping a watchful eye on the FCC's progress on 
this improved data collection and implementation of its new 
fund. As a member of the House Committee On Agriculture and 
Democratic Rural Broadband Taskforce, I will continue to push 
legislation that delivers Federal funding for broadband 
infrastructure investments both at the FCC and the USDA.
    I have also heard from small businesses, farmers, and 
students about the impact of slow download speeds and 
unreliable connections. Without access to reliable internet, 
small firms in rural areas miss opportunities to connect with 
new customers and can't take advantage of cost-saving tools, 
like digital payment processing and online distribution 
services. Schools and the healthcare providers are also 
impacted by a lack of access. Today, more than 70 percent of 
teachers assign homework that requires access to broadband. The 
students that don't have access suffer from the cruelest part 
of the digital divide. Small rural healthcare facilities also 
need access to telehealth services to reach specialists at 
larger urban hospitals offering connected care to monitor 
chronic health problems and save lives. Without reliable access 
to high-speed internet services, the opportunities are missed, 
and loved ones are lost.
    The small internet service providers that do operate and 
serve these communities need additional resources to get 
broadband infrastructure projects off the ground. Operators, 
like rural electrical co-ops, have made use of the valuable 
infrastructure to serve rural households and businesses, and 
small ISPs have made significant investments in fiber networks, 
but lack the access to Federal funding to expand their efforts. 
The FCC's matching partnership with the New York State 
Broadband Program Office has invested millions of dollars in 
funding and connected thousands of homes and small businesses, 
but we need to see more Federal and State government 
partnerships in order to close the divide in rural areas around 
the country, and ensure that all communities have access to 
reliable service.
    It is painfully clear that private investment is not 
enough. We need connectivity now. High-speed broadband is not a 
luxury. It is essential to economic development of the 
communities and the survival of small businesses. However, 
these connections could only be realized with swift and 
deliberate action, Federal investment, and accurate maps. I 
hope that today's discussion will shed light on ways to improve 
connectivity in rural communities. I look forward to working 
with my colleagues and Congress to increase Federal investment 
in broadband infrastructure and bridge the digital divide. I 
thank each of the witnesses for joining us today. I look 
forward to your testimony.
    Now I would like to just take a minute to explain the time 
and rules. Each witness will get 5 minutes to testify, and 
members--in this case, member--will get 5 minutes for 
questioning. There is a lighting system to assist you. Now, the 
green light, which typically would be the case if we were in 
Washington, we are not in Washington, so there are no green 
lights. But typically, there would be a green light, and with 
about 1 minute left, you see a yellow light. I am going to get 
a yellow light as well, and then there will be a red light, and 
I will get a red light. And when the red light pokes up, you 
will then have to stop, and I will politely ask you to conclude 
your testimony. That way we can keep the conversation going. 
And now I would like to introduce the witnesses for today's 
panel.
    Our first witness is Tim Johnson, who hails from Edmeston, 
New York. Mr. Johnson is the CEO of Otsego Electric 
Cooperative. Mr. Johnson has been the chief executive office 
and general counsel of Otsego Electric Cooperative and the only 
connect fiber subsidiary since May 2016. Prior to that, Tim was 
a lawyer in private practice for 27 years from 1985 to 2012 
with offices in Edmeston, Morris and Cooperstown. During this 
time, Tim represented Otsego Electric Cooperative, other rural 
electric cooperatives here in New York and numerous other non-
profits, charities, and municipalities. He left private 
practice in 2012 to become assistant general counsel at the 
National Rural Electric Cooperative Association in Arlington, 
Virginia. Tim studied at the University of Rochester in 
Rochester, New York where he received bachelor's and master's 
degrees. He obtained a law degree at Albany Law School of Union 
University. Tim is married, has 3 children, and resides in 
Edmeston. Welcome, Mr. Johnson.
    Our second witness, Ms. Shannon Hayes. Ms. Hayes is the 
owner of Sap Bush Hollow Farm Store and Cafe in West Fulton, 
New York. Ms. Hayes grew up in the Sap Bush Hollow Farm in the 
heart of Schoharie County, which she now operates with her 
husband, parents, and her 2 daughters. In 2016, she added a 
community cafe to the farm's offerings and could be found in 
there cooking breakfast on Saturday mornings. When she isn't 
flipping eggs, she is homeschooling her 2 daughters, writing 
books, or just hanging out in the wilderness. Shannon holds a 
Ph.D. in sustainable agriculture and community development from 
Cornell University. Her work has been featured in numerous 
publications, including the New York Times, Brainchild 
magazine, U.S. News and World Report, Farm Quarterly, Elle 
magazine, and many other publications. Ms. Hayes' weekly essays 
about her attempts to live a balanced and sustainable life can 
be found on her blog, ``The Radical Homemaker.net.'' Welcome, 
Ms. Hayes.
    Our third witness is Mr. David Berman. Mr. Berman is Co-
Chair of Columbia Connect in Denton, New York. A resident of 
Denton, Mr. Berman is a technology media consultant with a long 
career in those complementary fields. His career began in the 
world of closed-circuit television where he produced the 
broadcast of several of Mohammed Ali's biggest fights. I am a 
fan. This led to a 5-year stint at CBS Sports where he was 
managing director of the European operation based in London. He 
returned to New York as vice president of CBS Broadcast 
International in charge of production, operations, and 
administration for 11 years. That was followed by 7 years at 
the first global private satellite company, PanAmSat. 
Currently, he is a consultant to several Silicon Valley 
companies while serving as the Co-Chair of Connect Columbia, 
Chair of the Get Broadband Committee, on the Columbia County 
Broadband Committee. Every facet of his career, from the 
beginning to present day, has required more and more [Audio 
malfunction in hearing room]. Welcome, Mr. Berman.
    Our fourth witness is Mr. Jason Miller. Mr. Miller is 
general manager of Delhi Telephone Company in Delhi, New York. 
Jason Miller is the vice president, treasurer, and general 
manager of Delhi Telephone Company and DTC Cable. Jason started 
with DTC in May of 2008 and has held various roles within the 
company over the past 11 years, becoming general manager in 
2013. DTC currently maintains the following business lines: 
local telephone, long distance, internet, television, security, 
and I.T. consultant. DTC has over 35 employees and over 3,500 
customers. DTC has partnered with Margaretville Telephone 
Company and Delaware County Electric Cooperative on the 
Delaware County Board Initiative--I am sorry--Initiative since 
2015. Jason currently is Chairman of the NYSTA Government 
Affairs Committee, is a member of the NCAA Government Affairs 
Committee, is on the Board of Directors with the New York STA 
and the NTCA Rule Broadband PAC, P-A-C. Jason has a bachelor's 
degree in accounting from Syracuse University and master's of 
business administration degree from Binghamton University. 
Jason currently resides in Delaware County in the Town of 
Masonville with his wife, Julie, and 4 children, Lilly, John, 
Ben, and AJ. Welcome, Mr. Miller.
    We are getting there. Our fifth witness, Mr. Brian Dunn. 
Mr. Dunn is the superintendent of Middleburgh Central School 
District in Middleburgh, New York. In his 20 years of working 
the field, he has been an English teacher at Albany High 
School, assistant principal at Troy High School, and principal 
of Troy Middle School. He attended Christian Brothers Academy 
in Albany, New York and attended college at the College of St. 
Rose and SUNY Albany. He is a passionate mountain trail runner, 
fly fisher, and reader of history. He is a strong supporter of 
rural schools, the First Amendment, and World Peace. He lives 
in West Charlton, New York with his wife, 3 children, and cat 
named Twinkles.
    Mr. DUNN. Thank you.
    Chairman DELGADO. Welcome, Mr. Dunn.
    Mr. DUNN. Thank you.
    Chairman DELGADO. And our final witness, Dr. Cliff Belden. 
Dr. Belden is the chief medical officer of Columbia Memorial 
Health here in Hudson, New York. Dr. Belden is a 
neuroradiologist by training, and prior to coming to Columbia 
Memorial Hospital held leadership positions in both rural and 
urban environments, having served as the Chair of Radiology at 
Temple University in Philadelphia and the Chair of Radiology 
and chief clinical officer at Dartmouth in rural New Hampshire. 
Dr. Belden attended RPI for his undergraduate work in Albany 
Medical College where he graduated as a valedictorian. His 
radiology training was at the University of Florida and John 
Hopkins University. Dr. Belden served as a physician in the 
U.S. Army at Brooke Army Medical Center, San Antonio, Texas, 
from 1998 to 2002, where he achieved the rank of lieutenant 
colonel. He also received a master's in Healthcare Delivery 
Science from Dartmouth. Outside of his medical work, Dr. Belden 
and his wife, Marian, have a 100-acre farm in Hoosick, New 
York, which they actively farm, selling to local restaurants 
and at farmers markets. Welcome, Dr. Belden.
    I will now recognize each witness for 5 minutes to provide 
their testimony. Mr. Johnson, you are recognized for 5 minutes.

  STATEMENT OF TIM JOHNSON, CEO, OTSEGO ELECTRIC COOPERATIVE, 
EDMESTON, NEW YORK; SHANNON HAYES, OWNER, SAP BUSH HOLLOW FARM 
STORE AND CAFE, WEST FULTON, NEW YORK; DAVID BERMAN, CO-CHAIR, 
   COLUMBIA CONNECT, GHENT, NEW YORK; JASON MILLER, GENERAL 
MANAGER, DELHI TELEPHONE COMPANY, DELHI, NEW YORK; BRIAN DUNN, 
SUPERINTENDENT, MIDDLEBURGH, CENTRAL DISTRICT, MIDDLEBURGH, NEW 
 YORK; AND CLIFF BELDEN, M.D., CHIEF MEDICAL OFFICER, COLUMBIA 
               MEMORIAL HEALTH, HUDSON, NEW YORK

                    STATEMENT OF TIM JOHNSON

    Mr. JOHNSON. Okay. Do I need a microphone?
    Chairman DELGADO. That one, yeah.
    Mr. JOHNSON. Is this on? Can everybody hear me? Thank you 
for this opportunity to testify about broadband and its 
importance to rural areas. I am Tim Johnson. I am sorry?
    Chairman DELGADO. Talk into the mike.
    Mr. JOHNSON. A little bit closer.
    Chairman DELGADO. There you go.
    Mr. JOHNSON. I speak into the mike, and I can't move my 
head then. All right. I am Tim Johnson, CEO at Otsego Electric 
Cooperative as I was introduced. We are located near 
Cooperstown. Our cooperative serves approximately 4,500 
electric meter locations in the Otsego County area. Primarily, 
these are consumers that investor-owned utilities bypassed 
partially due to our sparse population.
    In early 2017, Otsego Electric was awarded New York 
broadband grants of $14 million, including $4 million in CAF 
funds. We announced plans to begin offering high-speed, 
affordable broadband to help our consumer members fully 
participate in the 21st Century economy. Ultimately, OEC will 
make service available to all our consumer members with fiber 
speeds of up to 1 gigabit.
    At this time, we actually already do that. The electric 
cooperative industry serves over 40 million Americans and 
covers 56 percent of the U.S. landmass. More than 100 electric 
cooperatives across the country are currently working toward 
meaningful solutions to bridge this digital divide. We believe 
electric co-ops are ideally suited for this task. However, we 
have several policy concerns that we believe you all can help 
with. First is the Federal Tax Code. Cooperatives desperately 
need your help fixing a 2017 Tax Cuts and Jobs Act mistake that 
happened in 2017, but we need it fixed by the end of this year.
    OEC unexpectedly stands to lose as much as $3 million 
dollars of our broadband grants to taxation. This makes 
absolutely no sense. We bid under 2018 pre-tax law rules, so 
the train had already left the station, so to speak, when the 
new tax bill arrived. Most rural electric cooperatives are tax 
exempt under 501(c)(12), and no more than 15 percent of our 
income can come from non-member sources in order to remain tax 
exempt. The Tax Act mistakenly made all public grants 
potentially taxable to cooperatives. This includes FEMA grants, 
a terrible mistake. If a Federal legislative fix is not passed 
by the end of this year, we will also lose our tax-exempt 
status. Fortunately, a bipartisan legislative solution has been 
introduced in the House and Senate, co-sponsored by our host, 
Congressman Delgado. This past April, the legislation will 
allow co-ops to accept grants without jeopardizing their tax 
status, but the bill has not been scheduled for a vote yet. We 
need your help and support on this bill.
    Mapping. I would like to mention mapping. I suppose some of 
our other panelists will mention this, and it has already been 
mentioned, but a critical step for us in deploying rural 
broadband is to improve our maps. We need to do away with the 
one served, all served census block concept. We need to gather 
more granular standardized data on coverage and performance 
levels, and we should incorporate crowd sourcing as a way to 
fund projects. We need a better challenge process to flag 
issues with data and maps. We are encouraged by the FCC, and 
Congress are already working on these issues.
    Public funding. As a nonprofit cooperative, we operate at 
cost, and our access to capital is limited by what our member 
consumers are willing to contribute through the rates they pay. 
The current Federal programs at the USDA and at the FCC, geared 
toward reducing the upfront capital investments, are necessary 
to achieve widespread expansion of high-speed broadband. The 
upcoming RDOF, or Rural Digital Opportunities Fund, will 
distribute $20 billion dollars by a reverse auction to help 
build service of at least 25 up and 3 down megabits-per-second 
to large segments of rural America. We believe added auction 
points should be given to gigabit expandable fiber to the home 
service projects where feasible. This is the gold standard we 
should all strive for everywhere.
    Chairman DELGADO. One minute.
    Mr. JOHNSON. Thank you. One quick comment on New York's 
broadband program. It has been a great program so far. However, 
it left many gaps due to mapping and funding problems. Over 
70,000 locations in New York were relegated to satellite 
services, many of us know. We need funding for gigabit fiber in 
the home services to be fair to all. The bottom line is we need 
public money. There isn't enough rate of return for private 
investors to get involved in many of these projects.
    In conclusion, Otsego Electric and electric cooperatives 
all over the country are ready and willing to take on this 
challenge. We did it 75 years ago with electric service, and we 
can do this project, as well. We look forward to working with 
you and everyone in expanding all the benefits broadband has to 
offer.
    [The statement of Mr. Johnson follows:]
    Chairman DELGADO. Thank you, Mr. Johnson. Ms. Hayes, you 
are now recognized for 5 minutes.

                   STATEMENT OF SHANNON HAYES

    Ms. HAYES. Can everybody hear me okay? All right. Quick 
storytelling now. My name is Shannon, and I live up in the 
hills of Schoharie County up against a 2,000-acre State forest 
5 miles from my family farm, and I am a child of the farm 
crisis. It forced youth out of my community like insects in the 
spray line of pesticides. It was whispered in the halls of my 
school that only the losers stayed around after graduation. 
Everybody else fled. So dutifully I went away to college, but I 
came home every other weekend because I love being a part of my 
family's farms, and I hated to be away from those dirt roads, 
and the farm-grown food, and the woodlands, and the neighbors, 
and the stone walls that define my world.
    I eventually got a Ph.D., as you heard about, and my 
husband and I were qualified to take on careers in any of the 
land grant colleges around the country. But we weren't 
qualified to come back to our own beautiful, yet economically 
depressed, Schoharie County. We didn't go job hunting. We 
bought a cabin up in Middleburgh Telephone Company service area 
as opposed to my parent's farm a few miles down the road, which 
was in Verizon's area. And after graduation, I told my parents 
that I had come to only one certain conclusion, and that was 
that our family, our community and our farm could not afford 
this continued loss of the brains--the brains--the creativity 
and the energy of the next generation. And the idea of 
commuting to a job someplace just filled us with abject misery.
    So we stayed put and we lived cheap, and we worked with my 
parents to grow Sap Bush Hollow. And in a few years, Bob and I 
actually had an opportunity to cash in on our cabin in the 
woods and buy a farm next to mom and dad. But if we moved, we 
would be giving up our local provider and moving into a Verizon 
district, and at this point, I was the primary communications 
person for our business. Moving our home offices would put us 
on the service fringe of an urban phone company, and it was an 
area that had long suffered from telecommunication's neglect. 
But a few miles down the road, we had the benefit of being 
covered by a rural telecommunications company that specialized 
in people like us.
    So at that moment we had to make a choice about the future 
of our farm: increase production or guarantee our 
telecommunications. Without good telecommunications, we would 
lose marketing opportunities and the ability to be in contact 
with our customers, to handle our finances efficiently without 
constant trips to town. Without the telecommunications, we 
would lose the ability to order supplies online, and we would 
have to take a day's work away from the farm just to drive into 
Albany. We would lose out on access to online veterinary 
diagnostic resources, the ability to network with other farmers 
about changes in the industry, and the ability to participate 
in online professional development opportunities, like seminars 
for improving grazing practices or learning more humane and 
ecologically responsible growing practices.
    So we stayed put. Instead of buying the farmland, we made a 
radically different choice. We bought our community's post 
office building and former firehouse and moved our farm center 
of commerce off the farm and into our rural hamlet. Part of 
this decision was to give the community an economic jumpstart. 
Part of it thought that, hey, why not in the middle of Upstate 
New York? Who wouldn't love an espresso bar and farm-to-table 
cafe? You all come, please. Okay. And the final reason, the 
internet there was decent. Our industry is changing fast with 
online developments, and if we don't keep up, we are going to 
lose our farm for all of the reasons that I just mentioned.
    Throughout this time now, we started a family and chose to 
homeschool our daughters. Our oldest, she practically taught 
herself to read, but the youngest would pick up books and hold 
them upside down. And she would bounce into things, bump into 
things. She confused people's names and faces, and we 
eventually learned she's legally blind in one eye, and she had 
reduced vision in the other, and she has a condition called 
cerebral visual impairment. She's smart, she's motivated, but 
she was severely academically learning disabled.
    Our rural school, which you will hear from today, did its 
best to help us, but it did not have all the resources we 
needed, and we faced walking away from this whole family 
business just to get our daughter the education because the 
only schools that could help us were in Canada or Boston, and 
they were going to cost us about $40,000 dollars a year, far 
more than our annual income here in Upstate. But what if we 
could get our learning environment equipped to accommodate her? 
If we could outfit our house with fast internet, I could make 
huge academic inroads with my kids.
    [Disturbance in hearing room.]
    Is that for me? Oh, no. Okay. If we could----
    Chairman DELGADO. Maybe somebody is timing you out there. I 
don't know. You do have about 1 minute.
    Ms. HAYES. Okay. If we could equip our proposed community 
cafe with good internet, then we could become a hub for all 
those other neighbors in the Verizon area. So we asked MIDTEL 
for help, and within a year's time, we came up with a solution, 
and we had better, faster internet than what you will find in 
downtown Albany. My oldest daughter enrolled in online classes. 
My youngest got enhanced visual access to any book or audio 
book in the world, and she became an avid fan of science 
podcasts. And she has gone from being a child that they did not 
think would read or write to this funny, articulate, and 
artistic preteen.
    I encourage you to say hello to both of them today. And the 
cafe, hey, it is open Saturdays only. That is pretty good. 
Folks come for food and to socialize, and to check their email 
and download media. And since we worked out our arrangement, 
our family farm has experienced 100 percent growth, evidence of 
what you were talking about, Mr. Delgado, through our cafe, our 
farm store sales, our farm market, and our online sales. A 
small eco resort has now opened up in our hamlet, and the 
community has gained a farmstead cider tasting room, two local 
arts groups, and a yoga studio. Each of them are certain that 
they could move forward with rural businesses because they 
could be guaranteed high quality internet. There is talk that 
West Fulton, New York is pulling itself up by the bootstraps. 
We started an Airbnb above the cafe, and we now bring tourists 
from all over the world here to West Fulton where people want 
to experience our farm fresh food and our waterfalls.
    Chairman DELGADO. Right. You are coming up on the end now.
    Ms. HAYES. Okay. All right. So the long story is talk to my 
kids afterwards if you want to find out what their future 
holds. They are not thinking about running away like I had to. 
They are thinking about staying here in upstate New York 
because there are opportunities now. We are losing the rural 
brain drain, and I am appreciative of what broadband has done 
for us. Thank you.
    [The statement of Ms. Hayes follows:]
    Chairman DELGADO. Thank you. Thank you, Ms. Hayes. Mr. 
Berman, you are recognized for 5 minutes.

                   STATEMENT OF DAVID BERMAN

    Mr. BERMAN. Thank you, Congressman. Can everyone hear me? 
Thank you, Congressman Delgado, for this opportunity. I am the 
Co-Chair of Connect Columbia, a citizen's action committee made 
up of elected officials and interested residents that have 
banded together to bring true broadband to the people of 
Columbia County. My Co-Chair, Patti Matheney is also here.
    Let me define ``true broadband'' in 2019 terms: a minimum 
of symmetrical 100 megabits per second growing to a symmetrical 
1 gigabit per second within 5 years. The FCC Commission's 
definition is considerably out of date and needs to be upgraded 
immediately. Many of our international competitors are already 
at the gigabit level.
    With that out of the way, let me just take a moment to 
describe the current conditions in Columbia County. We were 
fortunate to receive over $30 million from Governor Cuomo's 
broadband initiative with the help of our assemblywoman, Didi 
Barrett, and Connect America funding. This has taken us to 
coverage for most of our residents, but still leaves huge gaps 
in our geography. Why? Because the economics require density of 
potential subscribers, which effectively penalizes rural areas.
    The State and CAF money were used to fiber those areas 
where density made the economics work, and then a very 
confusing satellite overlay was applied to theoretically give 
everyone access, which it decidedly did not. As I am sure the 
commissioner is aware, the use of high-latency moderate-to-low 
through put satellite technology is merely a band-aid that 
cannot meet current demand, much less the exponential growing 
demand.
    So how do we fill in the holes to give everyone access to 
true high-speed broadband that has scalable technology to meet 
growing speed and capacity requirements? Even though current 
Federal programs are constructed to fix the basic problem of 
access, their requirements effectively preclude those they are 
designed to help. An example is a recent program that required 
an area to have 90 percent of the population that lacks 
coverage. Sounds logical, doesn't it? So, consider a farming 
area with central village. The village population 
overwhelmingly exceeds the farming one and, therefore, 90 
percent can't be achieved. The measurement is correct 
economically from a cost-per-person served basis, but fails 
miserably to provide access to rural areas where modern 
agriculture requires cutting-edge technology to effectively 
manage the process of growing our food supply, not to mention 
the children of farmers who need access to all the educational 
tools and resources that are now required.
    The only solution to this issue is to base local, State, 
Federal programs on the goal of reaching every address in the 
United States. That means scrapping the use of census blocks to 
define coverage availability, financing, etc. Very simply, 
census blocks are both confusing and lead to some bizarre 
results. A perfect example is a street behind my house in 
Ghent, German Church Road. Like many streets, it bisects 2 
census blocks so, under the State program. One of those blocks 
was granted money for broadband and the other wasn't. So, a 
provider doesn't get reimbursed for providing service to the 
other side of the street. Clearly every address that gets 
electricity should get broadband just like electricity which 
runs many devices essential to our lives, large-capacity 
communication capabilities are far more than the voice 
internet, email, and tweets. We are still in the early stages 
of what big connectivity can do beyond those mentioned with 
efficiencies in healthcare at the top of the list. It is no 
longer practical to separate access from voice and television 
since they all come over the same wire, fiber or frequency. Two 
out of 3 can't be ubiquitous while 1 remains unavailable. It is 
more important than ever in this economy to ensure every 
business and every person is connected to the content they want 
just as they can speak to anyone via traditional, what is known 
as POTS in the telephone world. It is called plain old 
telephone service. The Commission as a regulatory body needs to 
expand its vision to encourage expansion of existing 
technologies and leave the door wide open for new ones that 
will enable even more ways to connect and ensure security.
    Finally, Congress must act to rationalize the myriad number 
of competing programs that ostensibly are in place to 
facilitate the expansion of broadband, and then expedite the 
actual work being done, completed, and, importantly, measured 
so that suppliers meet the needs of consumers. And I apologize 
to my wife and children for not including them in my biography.
    [The statement of Mr. Berman follows:]
    Chairman DELGADO. But you ended within 5 minutes. How about 
that?
    Mr. BERMAN. [Off audio.]
    Chairman DELGADO. Thank you, Mr. Berman. I now would like 
to recognize Mr. Miller for 5 minutes.

                   STATEMENT OF JASON MILLER

    Mr. MILLER. Am I close enough to the mic? No? All right. 
Congressman Delgado, thank you for the opportunity to testify 
in the importance of rural broadband and closing the digital 
divide. My name is Jason Miller. I am currently the vice 
president, and treasurer, and general manager of Delhi 
Telephone Company, DTC, which was founded in 1897. We also have 
DTC Cable and they are both headquartered in Delhi, New York. I 
started with DTC in May of 2008 and have held various roles 
over the last the last 11 years, becoming GM in 2013.
    DTC currently provides our customers with local telephone, 
long distance, internet, television, security, and IT 
consulting. DTC has over 35 employees and 3,500 customers. In 
2015, we partnered with Margaretville Telephone Company and 
Delaware County Electric Cooperative for the Delaware County 
Broadband Initiative. We call it DCBI. As part of this 
partnership, DTC has received $30 million dollars in projects. 
That is our portion, just DTC's portion, in New York State 
grant awards. DTC will be completing 1,200 miles of fiber optic 
builds, passing approximately 15,000 homes mostly outside of 
our regulated telephone franchise territory. With this build, 
DTC will be in 17 communities.
    Deploying broadband takes time and includes many hurdles. 
Through our company's long experience in industry, combined 
with much-needed support from the Federal and State 
governments, we have been able to successfully deploy these 
networks in and around Delhi, New York for the rural residents 
of our community. Rural areas present unique issues to DTC, and 
more than 850 rural broadband providers represent by NTCA, the 
Rural Broadband Association that serves nearly 35 percent of 
the Nation's land mass, but less than 5 percent of the 
population.
    Low population densities and significant distances are the 
root cause of why it is very difficult to build a business case 
to provide broadband in these high-cost areas left behind by 
large providers, and to then sustain these networks and 
services once deployed. In order to succeed in delivering 
reliable internet service, it takes support of the Federal, 
State, and/or local levels along with the aforementioned 
commitment to the community. It is the public/private 
partnership model that has resulted in getting broadband to our 
customers and to serve as a model for reaching and then 
sustaining the delivery of broadband in the remaining unserved 
rural areas.
    Rural broadband has far-reaching effects, creating 
efficiencies in healthcare, education, agriculture, energy, and 
commerce. A report released in 2019 by Purdue University, in 
conjunction with the Foundation for Rural Service--FRS--found 
that in 2017, small rural communication providers in the United 
States contributed to more than 77,000 jobs and supported more 
than $10 billion in economic activities across a wide range of 
industries. Additionally, a Cornell University study found that 
rural counties with the highest levels of broadband adoption 
had the highest levels of income and education and lower levels 
of unemployment and poverty.
    Despite this great progress, many parts of rural America 
still need better connectivity, and even where broadband has 
been deployed, sustaining it in areas where consumers are 
scattered across great distances is itself a substantial and 
often underappreciated challenge. As policymakers consider 
potential initiatives for broadband infrastructure deployment, 
including USDA's Broadband Reconnect Program, the FCC's 
upcoming rural, digital opportunity fund, I believe, is 
essential to build upon was work to date. In doing so, there 
are several key principles that should guide next steps on 
infrastructure policy. These principles include providing 
Federal support to make the business case for investment in 
ongoing operation, leveraging existing experience and 
expertise, making long-term capital investments, targeting 
resources for new construction, coordination of efforts among 
many governmental programs, streamlining construction 
processes, and ensuring accountability for any recipients of 
scarce Federal resources
    Accurate broadband mapping data is also critical to the 
ability to deliver and sustain service in rural America, and 
bad mapping data risk leaving rural consumers stranded without 
broadband. Even as there is a push to improve the standards in 
the granularity of how providers report, it is equally 
important not to forget the importance of making sure that 
there is some opportunity to double check the accuracy of the 
data being self-reported by providers.
    Chairman DELGADO. One minute.
    Mr. MILLER. The FCC has taken significant strides recently 
to move toward more granular and accurate broadband 
availability, data collections, and maps, but Congress has an 
important role here and can and should provide vital guidance 
and direction to the FCC on how to proceed next. Due in large 
part to the commitment of leaders, like Congressman Delgado and 
others on this Committee, small rural broadband providers, like 
DTC and others, and NTCA membership have made great strides in 
reducing the digital divide in rural America, but the job is 
far from done. Robust broadband must be available, affordable 
and sustainable for rural small businesses and underserved 
populations to realize the benefits that advanced connectivity 
offers.
    On behalf of DTC and NTCA, the Rural Broadband Association, 
your commitment to identifying and solving these challenges is 
greatly appreciated. Thank you for inviting me to be with you, 
and I look forward to your questions.
    [The statement of Mr. Miller follows:]
    Chairman DELGADO. Thank you, Mr. Miller. Mr. Dunn, you are 
now recognized for 5 minutes.

                    STATEMENT OF BRIAN DUNN

    Mr. DUNN. Thank you, Congressman. Good afternoon, everyone. 
It is an honor to be part of this Committee and to have an 
opportunity to express my own meager experience and voice to 
this very complicated problem.
    I am a superintendent in Middleburgh, and you can't talk 
about Middleburgh unless you go back to 2011, Hurricane Irene, 
which devasted our community. Literally, the school was flooded 
up to 4 feet into the basement, and so where we work and where 
we learn is undergoing another renewal. And when you talk about 
rural renewal, you have to talk about high-quality schooling. 
If you don't have high-quality schooling with innovative 
technology, with great teachers who care and are invested and 
who stay for the long haul, you are not going to experience a 
high-quality renewal that lasts and sustains itself over time.
    My new friend, Ms. Hayes, to my right, you could hear the 
spirit in her voice, the hope in her voice when constituents 
are connected to information across the globe. It empowers our 
citizens, it empowers our youth, and it empowers our schools to 
join together to meet several wolves at the door. As a 
superintendent, the number one wolf at my door is safety and 
security. The second wolf at my door is never mentioned in any 
meeting, and that is the digital divide. So, I thank you for 
bringing it up.
    But also deeper in the question of digital division is 
artificial intelligence and its impact on local economies and 
on schooling, and how we teach and learn. The working class 
jobs continue to morph and change and go away. What is going to 
happen when driverless trucks, and cars, and trains take over 
the market in the next 10 to 15 years? That is a reality that 
is coming, and so the best way to inoculate our students and 
our families and to impart them with the skills they need, we 
have to have excellent broadband, not only in the schools but 
most importantly, in all homes.
    And I have to say there is a strong voice of optimism 
coming from Middleburgh and Schoharie County. Not only do we 
have fired-up residents like Ms. Hayes organizing, 
communicating, planning, working together, but we have a very 
strong infrastructure project that is 90 percent underway, led 
by our partner, MIDTEL, where 90 percent of our families are 
connected with fiber. Now, that will make all the difference 
for us in Middleburgh because in hopefully this year, we are 
going to get a $1 million Smart Schools grant after waiting for 
3 years. It is coming, and I am grateful for it, but we are 
going to have to make great use of that in the school.
    But like was mentioned earlier, homework is going to be on 
a laptop computer that we are going to send home, and all the 
families have to be connected with something they can afford 
that is high quality because our kids, as you all know, are 
competing globally. I always remember Thomas Friedman's book, 
The World Is Flat. It is truly getting flatter. So with that, I 
just want to remind everyone it is a complicated issue. We in 
Schoharie County and Middleburgh, in particular, we are 
grateful we are moving forward, but we always remember that 
good is the enemy of great. And if you expect American, New 
York's Schoharie kids to compete on a global stage, our 
technology cannot be a one-shot deal. We have to continue to 
get quality funding, quality support from local, State, Federal 
levels, and we will work with you.
    So with that, I hope my testimony meant something. I 
appreciate the opportunity to speak. Thank you.
    [The statement of Mr. Dunn follows:]
    Chairman DELGADO. Thank you. Thank you very much, Mr. Dunn. 
Dr. Belden, you are recognized for 5 minutes.

                STATEMENT OF CLIFF BELDEN, M.D.

    Dr. BELDEN. Thank you. Thank you for the opportunity to 
provide some comments today on this important topic. My 
testimony today is going to be focused on the impact that 
broadband internet access and the lack thereof has on 
healthcare and delivery of healthcare in rural areas.
    So there are three broad areas where broadband impacts the 
delivery of healthcare: the patient, the location of services 
that you are able to get at any facility or the types of 
services in that facility, as well as it has an important 
impact on our workforce. So, first, the patient. The patient is 
the center of why organizations like Columbia Memorial Health 
exist in rural counties.
    Twenty-five percent of the population of the United States 
lives in rural counties, but only 10 percent of the positions 
are in those same rural areas, creating a significant mismatch 
between the need and the availability of physicians and other 
healthcare providers. This mismatch is even greater in sub-
specialties, particularly in those where there is a nationwide 
shortage such as obstetrics, dermatology and child psychiatry. 
Telemedicine has been championed as a tool to improve care and 
help bring the input and expertise of specialties and 
specialists to rural communities and their patients.
    Telemedicine has many different forms and I will touch on 
two of them today: remote patient visits and remote 
telemonitoring of patients. Face-to-face teleconferencing 
between patients and a provider at their home or a medical 
facility allows a patient, who is referred to a specialist or 
perhaps needs follow-ups from one of their physicians, to see 
that provider without traveling for an appointment. Generally 
it is done over a secure videoconferencing platform. This 
results in improved access to specialists, and the patients get 
that benefit of not having to travel, particularly, during 
inclement weather, as we all know what the winters can be like 
around here.
    At Columbia Memorial Health, we have a pilot project with a 
local nursing home and our cardiology and pulmonary physicians 
where they can evaluate patients without needing to transport 
the patient to the hospital after they have been discharged. We 
know there is over 50 percent more use of telemedicine visits 
when a rural county has a high penetrance of broadband, and it 
is such an important tool.
    Remote patient monitoring is a second tool that involves 
providing patients with certain medical conditions devices such 
as scales, blood oxygen level monitors and heart rate monitors 
in order to get that data back to their providers to get early 
warning of any changes in their condition. Remote monitoring 
with these medical conditions can have a dramatic impact for 
the patients. For patients with congestive heart failure, 
remote telemonitoring decreases hospital admissions and 
readmissions up to 50 percent, and also has an impact on 
mortality and quality of life. Similarly, treatment costs are 
lower, and readmissions are lower for patients with chronic 
obstructive pulmonary disease when you use remote patient 
monitoring.
    At Columbia Memorial Health, we have begun to use these 
remote telemonitoring devices for some of our patients. 
However, there are some challenges. Without broadband access, 
the monitoring equipment requires a dedicated cellphone and 
cellular service plan to be provided along with that. To offer 
this service, we provide that cellphone, we provide the data 
plan, and the expense exceeds what the government now 
reimburses for the services, as well as limits our ability when 
we apply for grants to start these programs. It is also 
impossible to deploy in areas that don't have a cellular 
signal.
    Chairman DELGADO. One minute.
    Dr. BELDEN. The second thing I would like to talk about is 
how the location of medical facilities is impacted by 
broadband. We have a lot of different types of medical 
facilities, all of which require highly reliable connected 
internet service. We have 2 outside clinics that still use 
microwave transmission for their broadband access and one that 
has a lower speed non-commercial grade access. That limits what 
they can see and how quickly they access patient records.
    Finally, I would just like to say for the healthcare, the 
health provider, where you live matters, and if you are a 
radiologist, orthopedic surgeon, many of the specialists, or 
even primary care provider, you need high-grade internet access 
in order to perform your job. Increasingly we are required to 
make decisions quickly at home with the data that is sent to us 
via the internet.
    So in summary, our request is simple. People who choose to 
live in a rural community should have the same access to tools 
that improve their health as those who live elsewhere, and I 
appreciate the efforts that you are making on that behalf.
    [The statement of Dr. Belden follows:]
    Chairman DELGADO. Thank you, Dr. Belden. I appreciate the 
testimony from everyone, really informative, and really 
appreciate the time that you put into the testimony. I will now 
recognize myself to ask some questions.
    First, I want to begin with Ms. Hayes. Your testimony was 
very illuminating, and, as you know, we have a lot of farmers 
in our district. As I alluded to earlier, we are a very rural 
district. I think something like 5,000 farmers, about 8,000 
farm operations or operators, and there is no doubt that 
farmers want to be able to earn a livable income from their 
business. Now, you have had to seek alternative business 
opportunities to keep your farm operating. Could you please 
share--I know you got a little bit into this in your 
testimony--how access to affordable high-speed broadband can 
help farmers and other small business owners expand their 
business? What were the ways for you that it allowed the 
expansion of business?
    Ms. HAYES. Okay. First, I do want to underscore in the case 
of my farm, we could go out to coffee and talk about the farm 
bill, and the Nation's chief food policy, and the commodity 
production but----
    Chairman DELGADO. Happy to do that.
    Ms. HAYES. Yeah, okay. So anyhow, I want to underscore, 
though, that diversification in the case of my farm is a 
choice. Diversification is ecologically beneficial and enables 
us to serve local markets and the community more effectively, 
and it has helped us here to become an anchor business and an 
economic driver in our community. So one of the ways that it 
has helped us, you know, you have already heard about the way 
the business is diversified with providing local food, and 
providing online services, and in terms of online shopping and 
things like that.
    We have to teach constantly. Basically, in our Nation's 
agricultural history and food history, every generation since 
World War II has forgotten how to cook. It is very true, your 
people today, your constituents are time strapped. They are 
economically strapped, and processed foods, every generation 
gets a new processed food. But processed foods are what they 
turn to and the next, and they are not teaching the next 
generation. I am a farmer and I need people to buy real food. I 
have to constantly educate, and this is where the broadband is 
extremely important to me.
    The next thing is it does create this multiplier effect, as 
I mentioned. People are coming into the area to see Sap Bush 
Hollow. They are staying, for example, in our vacation lodging, 
and then they are putting that money in all the different 
businesses in the area because they want to see what we are 
talking about on the internet. They want to see the beautiful 
waterfalls that we show. They want to taste the food that we 
are telling them how to cook. So we constantly have to educate 
to keep our heads above the water, and we are bringing people 
in and getting them to experience the rest of the businesses.
    Chairman DELGADO. Thank you, and I think the multiplier 
effect pieces is critically important, and not just teach 
folks, you know, where good food is, but also to connect the 
folks who are providing it, right? And to the extent that we 
can have connectivity and set up localized distribution 
centers, food hubs, farm hubs, we can't do that in the absence 
of broadband access, so I really appreciate that.
    Mr. Dunn, yes, Mr. Dunn, as the superintendent of 
Middleburgh Central School District, can you discuss, and I 
know you have talked a bit about this, but, in more detail, how 
improved broadband has impacted students in your classrooms?
    Mr. DUNN. Well, in the context of the flood, our school 
system took a dive, and I have only been there a short while, 
under 2 years, but I took over an organization with an 82 
percent graduation rate. And that is 18 percent of your kids 
not getting a diploma, and that is, that is very significant. 
And you also have to look at advanced regents diploma 
acquisition as college ready.
    So, a lot of our economic indicators were down, so that is 
a whole complicated turnaround discussion. But how technology 
influences turnaround locally in its schools, it provides 
resources for people to research, to dialogue, and access best 
practices to improve their pedagogy. And so, what you have is a 
more highly-trained teaching force, you have more highly 
trained and motivated administrators, and you have opportunity 
and resources curricular-wise for kids to engage in project-
based learning, to improve their reading, to improve their 
networking.
    Don't forget distance learning. We have a lot of distance 
learning, and one of the things we are working on right now I 
am really proud of, you know, how do you engage in diversity 
and inclusivity discussions in a school system that is 99 
percent white? Well, we have distance learning. Well, who are 
we distance learning with? We did a research project on it, and 
it is mostly other white constituencies in schools. So now we 
are investigating with a couple of partners. Well, how can we 
get access to urban distance learning to mix it up a bit 
because that is the world. That is the State university system. 
Those are the big cities, and that is a big part of the Every 
Student Succeeds Act, you know, creating equity and inclusion 
for all. So technology and high-quality technology is a great 
lever in a tool for progress and change.
    Chairman DELGADO. Excellent. Thank you for that. And, Dr. 
Belden, you kind of alluded to this, but I want you to unpack 
it a little bit more, and it is kind of buried in everybody's 
testimony is the power of the draw of broadband access and 
recruitment of, you know, staff, caretakers, physicians, you 
know, if you want folks to come. And we know how urgent the 
need is for care in our rural communities. Can you speak a bit 
about what the impact would be to recruit physicians and 
specialists to the region with broadband access, and also the 
cost piece? You mentioned the cost element that the hospital 
has to bear. If you can get into more specifics about what that 
cost really feels like for you?
    Dr. BELDEN. Sure. So I can use my own self as an example. 
When I moved to rural Hoosick Falls, the first thing we asked 
our realtors was is there internet access? Where can we get 
reliable service? Because as a radiologist, I know I am going 
to need to look at images after hours. The farm we bought in 
2003 happened to be the last house on the road that had 
internet service. The only reason it had internet service was a 
previous owner was a soccer coach of a team from Vermont, and 
the head of the cable company wanted his son on the soccer 
team. So the deal was struck that his son would travel overseas 
with the team if cable came to my house. My neighbors down the 
road, 16 years later, still don't have high-speed cable 
broadband.
    So that is the draw whether you are a physician or a 
physician's assistant, or a transcriptionist. Our 
transcriptionist--we had to switch our providers during a 
recent upgrade of our system. The transcriptionist that we had 
lived in an area where their internet wasn't reliable enough to 
do the transcription work. We had to outsource it outside of 
Columbia County for a period of time until the other system 
came back on, so that is really important.
    You asked about cost, and cost in healthcare is always 
really sticky, because whose cost is it? If we, Columbia 
Memorial Health, do telemonitoring, I know we can decrease the 
number of readmissions and improve the health of patients. That 
is the business we are in. That is what we want. We can absorb 
that cost, but it would be nice if the reimbursed amount, (we 
now have some codes where we can reimburse), at least covered 
that cost for us. The people--that is, the entities--that save 
dollars, real dollars when you don't readmit a patient or you 
don't admit them at all, that is the insurance company or 
Medicare or Medicaid. Again, good to save money.
    I don't want to think we don't want to save money, we do. 
We spend for the remote monitoring, but someone else 
financially gets the benefit. Thankfully, the patients get the 
health benefit, which is why we are exploring these 
telemedicine projects, doing what can we do for patients with 
the budget and the funding that is available.
    Chairman DELGADO. Thank you. That is very helpful. Mr. 
Johnson, as the CEO of Electrical Cooperative, and as someone 
who has had to figure out how to disburse and implement the 
grant funding from the State, could you just speak a little bit 
to some of the limitations that you have encountered when 
trying to ensure that you are best equipped to do the work that 
you are asked to do for your members and the community at 
large?
    Mr. JOHNSON. Some of the limitations?
    Chairman DELGADO. Yes, in terms of, specifically, you know, 
if there are communities that you are being asked to implement 
broadband, how that choice is being made and how are other 
actors in this space, other cable providers, for example, 
decisions being made that might affect where you are able to go 
and to what extent.
    Mr. JOHNSON. Well, according to the terms of the New York 
Rural Broadband grant, we agreed to provide service in 
specified census blocks. So we didn't have much choice as 
during the past 2 years.
    Chairman DELGADO. Uh-huh.
    Mr. JOHNSON. After these 2 years, we will have some 
opportunity, but the limitations are that, and the incentives 
are to go toward density, the most dense area instead of the 
most sparse area without public funding.
    Chairman DELGADO. Right.
    Mr. JOHNSON. So that is the critical limitation. One of the 
other limitations, we know and can control the construction 
cost. We don't know when we go into a particular project what 
exactly the make-ready costs are going to be to get on poles 
outside of Otsego Electric's network. That is an unknown and a 
severe limitation without public funding to proceed down the 
road----
    Chairman DELGADO. Uh-huh.
    Mr. JOHNSON.--where, you know, it could be tens of 
thousands of dollars to go the next mile for construction. But 
the make-ready, it could double that perhaps.
    Chairman DELGADO. Right.
    Mr. JOHNSON. And sometimes it doesn't, and, you know, a 
hallelujah moment. But when it does, you are in a world of hurt 
if you are trying to make it happen.
    Chairman DELGADO. Right. Could you speak a little bit to 
the tax law issue that you flagged and how it has, you know, 
negatively affected OEC?
    Mr. JOHNSON. Right. The tax law change happened after we 
made our bids, put our application materials together, did our 
feasibility studies. And we suddenly were confronted with the 
fact that we might have a 21 percent loss of our grants 
Federally, and 9 percent State. So obviously, that is on our 
scale project, the $10 million project that is a 30 percent 
adjustment in what we thought we were going to be able to do. 
We were bound contractually, so we have gone out and borrowed 
the additional money. And by December 15th, we will be sending 
an estimated tax deposit based on these public grants that we 
received in 2019, and in 2020, we will receive more.
    Probably this year we will receive about $4 million, so we 
are confronted about $1 million loss, and then next year we are 
confronted with, on a $6 million grant, perhaps another $1.8 
million loss. That goes directly to our bottom line. We go 
directly to a borrower and, you know, ask them for the ability 
to borrow. We believe we will get it, but in the meantime, we 
would like to be able to go another mile, another 2 miles to 
the next people who are down the road and we can't. For the 
short term, we have to pay that debt, and just the interest 
alone, you know, you can imagine about $1 million, about 
$50,000 a year, maybe a little less at today's rates, severely 
curtails our ability to reach out to those people who are 
relegated to satellite service.
    Chairman DELGADO. All right. Thank you. Mr. Berman, I want 
you to speak. I know you have had been doing the work to access 
and expand coverage to the residents of Columbia County for 
some time, and I think you have alluded to obstacles that you 
have encountered, specifically in the county. Can you speak a 
bit more about what those challenges are and why it has been 
such a challenge from your advantage point?
    Mr. BERMAN. Sure. It is a simple question that I think we 
all face here of density. Under New York Public Service 
Commission rules for a television franchise, you must provide 
service to homes where the density is 35 homes per linear mile. 
Most of the cable companies will give you something better, but 
when you look at the cost of modern fiber optic installation in 
a green-field, meaning virgin territory, we are talking about 
upwards of $40,000 a mile. So if there are 7 or 10 homes, those 
homes are going to have to be contracted to you for the next, 
oh, I don't know, 4,000 or 5,000 years before you will ever 
make money.
    Then you hit the issue of pole permits, which is one of the 
big, nasty issues of, you know, just because you want to hang a 
wire on a pole, if you don't own the pole, you have to get a 
pole permit. And while the utilities are required to respond in 
a timely manner, the small ones do. The large ones couldn't 
care less. And so what we will find, a lot of the broadband 
program office money that has been granted, they are behind 
schedule because the larger utilities do not give them access 
to the pole to hang the wire. And then you add in things like 
commercial secrecy of nobody wants to tell you where they are 
going in fear of others.
    And one of the drawbacks of the State program is that they 
sign various nondisclosure agreements with Spectrum, and so the 
public has a hard time figuring out where commercial service is 
available. The Chairman of the county broadband committee and 
the elected official went from a 2-megabit DSL line for 50 
bucks a month, and happened to see a guy going down the street 
from one of the carriers, and asked if service was available. 
And they said, oh, yeah, we can bring fiber to your house 
tomorrow. And he went from 2-megabit DSL to a symmetrical 
gigabit at $71 a month, and had no way of knowing that it was 
available. So, you know, it is a problem of physically building 
it and then actually making the public aware that it might 
actually be available.
    Chairman DELGADO. Right. And on that first point with 
regard to population density, you know, it is interesting to me 
because it is so important to recognize that while the market 
has a rational way to operate, and that way in which it 
operates is, you know, seeking out profit margins. So you don't 
have to make a normative judgment one way or the other whether 
or not the market is acting in the way it ought to make money, 
right? So the question then becomes, what is the counterweight, 
right? What becomes the way to make sure that while that market 
operates the way that it does, it doesn't result in communities 
being left behind? And this goes back, Mr. Miller, to your 
point about public/private partnerships. And to the extent that 
those things can be created via incentivization or subsidies or 
tax credits, whatever the case might be, I think we at the 
Federal level must take a hard look at forming those kinds of 
partnerships. And where they cannot be formed, obviously, 
taking this on in a more public works standpoint by investing 
our revenue more directly into these projects.
    I do want to just with our last question here, mapping came 
up quite a bit over the course of the testimony. Census block 
mapping clearly is flawed. Again, to reiterate, this is a 
situation where you have one home covered in 1 block and the 
whole block is deemed covered. And that makes a lot of sense 
when you have people living on top of each other in densely 
populated areas. But when they are not living on top of each 
other, you might want to consider a different way to track who 
has coverage and who does not. So what might those other ways 
be? I mean, how important, for example, is it to incorporate 
usage, or subscription to access connectivity or household 
data? What are some of the ways we think that we can get to 
more nitty gritty data to help us understand who, in fact, has 
coverage and who doesn't?
    Mr. MILLER. Well, you know, an important part of the self-
reporting is important, and the audits are important. I think a 
lot of the small carriers would go from auditing of the data to 
make sure that it is accurate, but the subscription model is 
sometimes tough also because a customer can choose what speed 
they need for their particular house. So even if they take a 
10-meg service now or a 25-meg service, that may not be a 
future proof network.
    So part of the mapping really has to be what is the maximum 
speed allowed available in that technology, and I think part of 
the mapping solution shouldn't include future proofing the 
network. You know, it is very frustrating to me. I am a type of 
person that likes to build it once and build it right, and have 
it there 20 to 30 years. So by using fiber optic cable and 
dedicating a fiber to every single home, that house is future 
proof for the next 30 years.
    I can change out electronics on either side and go from 100 
meg, to 1 gig, to 10 gig, to 100 gig. The glass that is on the 
poles is there for the next 30 years. Sometimes we tend to limp 
along with improving the speeds of copper by shortening the 
distance, whether it is copper or coaxial, put in more 
cabinets, shorten the distance. I can increase a 5-meg service 
to 10-meg, and then I meet the Federal guidelines, so we are 
good for this round of funding. But in 5 years, we are going to 
have to do a whole new round of Federal funding, and it becomes 
that kind of vicious cycle of continuously funding, upgrading 
the infrastructure. So I think part of the mapping process 
should be identifying where there is technology that is future 
proof, and really making sure that is how we are spending our 
money in infrastructure.
    Chairman DELGADO. So it sounds like what you are saying is 
an actual robust commitment to solving the problem and not just 
putting a band-aid over it bit by bit.
    Mr. MILLER. Absolutely.
    Chairman DELGADO. Yes. Well, I know we are running long on 
time. I want to just thank all the witnesses for sharing their 
time with us and their testimony today. It has really been a 
privilege. I just want to offer a closing statement before I 
gavel this out, and then as noted, you know, we will stick 
around and do some questions with the commissioner.
    Connecting communities in rural upstate is of critical 
importance to me and members of the Small Business Committee 
for many years, but there have been too many Americans who do 
not have access to the high-speed broadband connections they 
need, and we have heard today what the implications are. Small 
electrical co-ops and other broadband service providers do not 
have the resources they need to build and sustain broadband 
networks with our few subscribers in high construction costs.
    Building out broadband infrastructure in rural America 
requires accurate maps and targeted Federal funding, real, 
robust, targeted funding so that billions of dollars of 
infrastructure incentives can reach the towns and communities 
that need them the most. Access to broadband can mean the 
difference between businesses opening and closing, students 
failing or passing and succeeding, and lives being improved and 
saved. Closing the digital divide should be a top priority for 
members of Congress. It certainly is one of mine. Representing 
all districts, the FCC, and the USDA, we must continue to push 
for policies until every community is served.
    I would ask unanimous consent that members here have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 2:27 p.m., the Committee was adjourned.]


                            A P P E N D I X

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
